GR-80-98-016
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Mescalero Apache Tribe
Mescalero, New Mexico
GR-80-98-016
April 17, 1998

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Mescalero Apache Tribe, Mescalero, New Mexico. The
Tribe received grants of $44,502 to hire or rehire one sworn police officer under the
Funding Accelerated for Smaller Towns (FAST) program, and $385,552 to hire or rehire eight
additional police officers under the Universal Hiring Program (UHP). The purpose of the
additional officers is to enhance community policing efforts.
Due to the lack of community policing, we are questioning $105,620 under the FAST/UHP
grant, which was the amount of funds received by the Tribe at the time of our audit. The
Tribe should implement a community policing plan within 90 days. If corrective action is
not achieved within that time, withhold all future payments.


We found the following weaknesses with regard to meeting grant conditions: 
- The Mescalero Apache Tribe has not implemented a community policing program. The
    Tribe stated in its application that they would prepare a strategic plan for community
    policing. However, the plan had not been approved by the full tribal council as of the
    date of our field work.
- Provisions had not been made to retain five of the nine officers upon expiration of
    the grant.
- The Mescalero Apache Tribe did not submit the Department Annual Report and the
    Officer Progress Reports. Further, Financial Status Reports were not always submitted, or
    were not submitted timely.
- Total program outlays were incorrectly shown on Financial Status Reports and Requests
    for Payment. 


 
#####